42
APPENDIX TABLE OF CONTENTS
APPENDIX CONTENTS

Page(s)

Order and Decision, United States Tax Court,
Dated September 30,2019.................................................................

A1

Order Denying Petitioners’ Motion for Summary Judgment
United States Tax Court, dated June 19, 2019...................................

A16

Final Ruling from the United States Court of Appeals for the
Fifth Circuit, dated April 16, 2020.....................................................

A21

Order Denying Petition for Rehearing En Banc, United States Court of
Appeals for the Fifth Circuit, dated June 16, 2020.............................

A24

Order Denying Motion to Stay the Mandate, United States Court of
Appeals for the Fifth Circuit, dated June 23, 2020............................

A25

39

JRB

UNITED STATES TAX COURT
WASHINGTON, DC 20217

ANTHONY DWAYNE WILLIAMS &
T'ESHEKA RENYELL YOUNG,

)
)
)

Petitioner(s),

)
)

v.

) Docket No. 26670-17 L.
)

COMMISSIONER OF INTERNAL REVENUE, )
)

Respondent

)
)
)
)
)

ORDER AND DECISION
This case was commenced on December 26, 2017, under section 63301 in
response to notices of determination, all dated November 22,2017, concerning
proposed collection actions for petitioners’ Federal income tax liabilities for tax
years 2012 and 2013 and for frivolous tax submission penalties under section 6702
for returns and other filings for 2012 and 2013. Although the notices covered two
tax years, petitioners challenged respondent’s determinations for 2012 in this case,
and challenged respondent’s determinations for 2013 in a companion case at
docket no. 26671-17L filed on the same day. On December 3, 2018, we ordered
that the two cases be consolidated for purposes of trial, briefing and opinion.
On August 7,2019, respondent filed a Motion for Summary Judgment along
with a Declaration of Appeals Officer Andrew S. Ostos (AO Ostos), to which
petitioners objected on September 13,2019. The two consolidated cases are set for
trial at the New Orleans, Louisiana trial calendar on October 7,2019.
1 Unless otherwise indicated, section references are to the Internal Revenue Code
of 1986, as amended, in effect for the relevant years. Rule references are to the
Tax Court Rules of Practice and Procedure. All monetary amounts are rounded to
the nearest dollar.

19-60804.904

SERVED Sep 30 2019

A1

-2-

The undisputed facts are as follows:
Petitioners timely filed their joint Form 1040, U.S. Individual Income Tax
Return for tax year 2012, self-reporting an income tax liability of $8,156,
withholding of $15,505, and a credit of $7,349. They then filed a joint Form
1040X, Amended U.S. Individual Income Tax Return for 2012 on July 10,2014.
Their 2012 Form 1040X reduced their taxable income to zero and requested a
refund for the remaining $8,156 in withholdings.
Petitioners also timely filed their joint Form 1040 for tax year 2013, selfreporting an income tax liability of zero, withholding of $15,508, and a credit of
$15,508. They then filed a joint Form 1040X for 2013 on July 29,2014. Their
2013 Form 1040X increased their withholdings by $3,390 and requested a total
refund of $18,898.
Respondent examined petitioners’ 2012 and 2013 tax returns, determined
deficiencies in tax and penalties under section 6662(a) for each, and issued notices
of deficiency for both years on October 20,2014. Petitioners did not file a petition
in this Court challenging the determinations so respondent assessed the
deficiencies and additions to tax.
Respondent also deemed petitioners’ 2012 Form 1040X and 2013 Form
1040 and Form 1040X to be frivolous and assessed one frivolous tax submission
penalty under 6702(a) for 2012 and four separate penalties for 2013 against Mr.
Williams. The record includes one Form 8278, Assessment and Abatement of
Miscellaneous Civil Penalties, addressed to Mr. Williams, and bearing a signature
dated September 7,2016, that lists one frivolous tax return violation for 2013
under section 6702(a), described as “Frivolous Tax Return - Form 1040X Dated
06022016”, and the following remarks “ARG 44 FRV RETURN TO 525 LTR X
REF [XXX-XX-XXXX]” and “Signature Date 07252014”, which date corresponds
to the date shown on petitioners’ 2013 Form 1040X. The record also includes a
Form 4340, Certificate of Assessments, Payments and Other Specified Matters,
showing assessment of section 6702 penalties on February 16, 2015, in the amount
of $10,000, and January 18,2016, and October 10, 2016, each in the amount of
$5,000.
Respondent issued to each petitioner a Notice of Intent to Levy and Notice
of Your Right to a Hearing, dated May 22,2017, with respect to their tax liabilities
for 2012 and 2013 (tax liability levy notices). Respondent issued Mr. Williams a

19-60804.905

A2

-3-

Notice LT11, also dated May 22,2017, with respect to the single frivolous tax
submission penalty for 2012 and the four separate penalties for 2013 (frivolous
penalty levy notice). On June 12, 2017, respondent timely received from
petitioners a Form 12153, Request for a Collection Due Process or Equivalent
Hearing, in which petitioners offered frivolous arguments and indicated they were
not interested in collection alternatives.
AO Ostos responded to petitioners’ Form 12153 with two Substantive
Contact Letters, both dated September 15, 2017, that (1) scheduled a telephonic
hearing on October 17,2017, concerning the tax liability levy notices and the
frivolous penalty levy notice, (2) requested a completed Form 433-A, Collection
Information Statement for Wage Earners and Self-Employed Individuals, and
completed Forms 1040 for 2014,2015, and 2016, and (3) warned petitioners that
one or more of their positions raised in their Form 12153 was frivolous and could
subject them to additional penalties.
Petitioners did not submit the requested information before the scheduled
telephonic hearing. AO Ostos called petitioners on October 17, 2017, for the
scheduled telephonic hearing. During the hearing, petitioners continued to offer
frivolous arguments and were not interested in collection alternatives. AO Ostos
warned petitioners that the Court might impose penalties under section 6673 if they
presented frivolous arguments to the Court.
After the hearing, petitioners sent AO Ostos a letter, dated November 17,
2017, which again offered frivolous arguments and indicated they were not
interested in collection alternatives. They did not include any of the requested
information with their letter. After receiving no additional information other than
petitioners’ letters, respondent issued three notices of determination, all dated
November 22, 2017: (1) to Mr. Williams upholding the tax liability levy notice;
(2) to Mrs. Williams upholding the tax liability levy notice; and (3) to Mr.
Williams upholding the frivolous penalty levy notice.
Analysis
Rule 121(b) provides in part that after a motion for summary judgment and
an opposing response are filed “[a] decision shall thereafter be rendered if the
pleadings * * * and any other acceptable materials, together with the affidavits or
declarations, if any, show that there is no genuine dispute as to any material fact
and that a decision may be rendered as a matter of law.” Summary judgment is

19-60804.906

A3

-4-

intended to expedite litigation and avoid unnecessary and expensive trials. Fla.
Peach Corp. v. Commissioner. 90 T.C. 678, 681 (1988).
We have reviewed respondent’s motion and the documents submitted in
support thereof and petitioners’ response. We are satisfied that, viewing facts in
the light most favorable to petitioners, for the reasons summarized below,
respondent is entitled to a decision as a matter of law on all issues remaining after
respondent’s concessions.
Where the validity of the underlying tax liability is in issue, the Court
reviews the Commissioner’s determination de novo. Goza v. Commissioner. 114
T.C. 176,181-182 (2000). Where the validity of the underlying tax liability is not
properly in issue, the Court will review the settlement officer’s administrative
determination for abuse of discretion. Sego v. Commissioner. 114 T.C. 604, 610
(2000). The settlement officer must verify that the requirements of any applicable
law or administrative procedure have been met, consider issues properly raised by
the taxpayer, and consider whether the collection action balances the need for the
efficient collection of taxes with the taxpayer’s legitimate concern that any
collection action be no more intrusive than necessary. Secs. 6320(b) and (c),
6330(b), (c)(3).
A taxpayer may raise the underlying liability at a hearing if he did not
receive a notice of deficiency or otherwise have an opportunity to dispute his tax
liability. Sec. 6330(c)(2)(B). If a notice of deficiency is properly mailed to the
taxpayer at the taxpayer’s last known address, the notice is valid even if the
taxpayer did not receive it. See, e.g.. United States v. Zolla. 724 F.2d 808, 810
(9th Cir. 1984). As part of the settlement officer’s determination, he must verify
that a valid notice of deficiency was issued to the taxpayer at the taxpayer’s last
known address. Sec. 6330(c)(1); Jordan v. Commissioner. 134 T.C. 1, 12 (2010);
Hoyle v. Commissioner. 131 T.C. 197,200 (2008). But even if the notice was
properly mailed, the taxpayer may be able to challenge the underlying liability if
the taxpayer can establish that no notice was received. Hovle v. Commissioner.
131 T.C. at 199; Sego v. Commissioner. 114 T.C. at 609; Snodgrass v.
Commissioner. T.C. Memo. 2016-235, at *14.
1. Tax Liability Lew Notices
Petitioners do not dispute receiving the notices of deficiency, but rather
challenge respondent’s tax liability levy notices with frivolous arguments and
claim that respondent failed to verify that all applicable procedures were followed.

19-60804.907

A4

-5Petitioners’ frivolous arguments have been rejected repeatedly by this and other
courts. See, e.g., Wilcox v. Commissioner. T.C. Memo. 1987-225 (rejecting
contentions that wages are not income and payment of taxes is voluntary for
American citizens as frivolous), aff d, 848 F.2d 1007 (9th Cir. 1988); Charczuk v.
Commissioner. T.C. Memo. 1983-433 (rejecting the contention that the income tax
is invalid as a matter of law as frivolous), affd, 771 F.2d 471 (10th Cir. 1985);
Knelman v. Commissioner. T.C. Memo. 2000-268 (rejecting the contention that
business income was not taxable gross income as frivolous), affd. 33 F. App’x
346 (9th Cir. 2002); see also Greenberg’s Express. Inc. V. Commissioner. 62 T.C.
324 (1974) (holding that we do not look behind the notice of deficiency to question
the procedures the Commissioner followed leading up to the issuance of the
notice). We therefore will not dignify them further by analyzing each specific
point in turn. Crain v. Commissioner. 737 F.2d 1417 (5th Cir. 1984) (“We
perceive no need to refute these arguments with somber reasoning and copious
citation of precedent; to do so might suggest that these arguments have some
colorable merit.”).
We now consider whether the settlement officer abused his discretion in
sustaining the proposed collection actions. In his motion, respondent states that he
was unable to verify compliance with the procedural requirements of section
6751(b)(1) for the penalties he determined under section 6662(a) for either 2012 or
2013. See sec. 7491(c); Graev v. Commissioner (GraevIII), 149 T.C. 485,492493 (2017) supplementing and overruling our prior opinion in part Graev v.
Commissioner (Graev II), 147 T.C. 460 (2016). Section 6751(b)(1) requires the
Commissioner to show that the initial determination of certain penalties was
“personally approved (in writing) by the immediate supervisor of the individual
making such determination”. See sec. 6751(b)(1); Graev III. 149 T.C. at 493; see
also Chai v. Commissioner. 851 F.3d 190 (2d Cir. 2017) aff g in part, rev’g in part
T.C. Memo. 2015-42; Clay v. Commissioner. 152 T.C._,__(slip op. at 44)
(April 24, 2019). Therefore, respondent concedes those penalties on procedural
grounds.
As to the remaining underlying deficiencies, the record establishes that AO
Ostos (1) verified that the requirements of any applicable law and administrative
procedure were followed; (2) considered the issues petitioners raised; and (3)
properly balanced the need for the efficient collection of taxes with petitioners’
legitimate concern that any collection action be no more intrusive than necessary.
We therefore will sustain respondent’s two notices of determination to proceed
with the collection action for petitioners’ underlying tax liabilities for 2012 and
2013, but not the section 6662(a) penalties assessed for those years.

19-60804.908

A5

-6-

2. Frivolous Penalty Levy Notice
Section 6702(a)(1) imposes a $5,000 penalty on a taxpayer for filing a
frivolous return and section 6702(b) imposes a $5,000 penalty for frivolous
positions asserted in “specified frivolous submissions”. Respondent concedes that
Mr. Williams had no prior opportunity to challenge these penalties; therefore, he
was entitled to a de novo review of respondent’s determination. Goza v.
Commissioner. 114 T.C. at 181-182 (2000); see also Pohl v. Commissioner. T.C.
Memo. 2013-291 (holding that a taxpayer can dispute his liability for a section
6702 penalty because he would not have received a notice of deficiency before
assessment of that penalty).
The Commissioner bears the burden of showing supervisory approval for the
frivolous tax submission penalty under section 6702. See Kestin v. Commissioner.
153 T.C.__,__(slip op. at 14) (August 29, 2019). The record includes a penalty
approval form for one section 6702(a) penalty that is signed and dated September
7, 2016, which preceded assessment of one of the section 6702(a) penalties tied to
petitioners’ 2013 Form 1040X. Respondent concedes that he has not met his
burden under section 6751(b) as to the remaining four section 6702 penalties,
including the section 6702 penalty assessed for 2012. Therefore we will not
sustain respondent’s notice of determination for this penalty.
No genuine issues of material fact are in dispute, and no other challenges to
the notices of determination on which this case is based have been properly raised.
We therefore will grant respondent’s motion for summary judgment subject to
respondent’s concessions noted above.
We warned petitioners previously that the Court can impose penalties of up
to $25,000 under section 6673 for frivolous arguments or groundless positions and
we advised them that their positions in this case appeared to fit this description.
They persisted even after our warning but they also raised an issue (verification)
that respondent conceded in part. We therefore will not impose a penalty under
section 6673 but we again warn them that penalties are likely in the future if they
keep taking these positions.
Upon due consideration and for cause, it is hereby
ORDERED that respondent’s Motion for Summary Judgment, filed August
7, 2019, is granted. It is farther

19-60804.909

A6

-7-

ORDERED AND DECIDED that respondent’s notice of determination
dated November 22,2017, to Mr. Williams upholding respondent’s proposed
collection action as to petitioners’ tax deficiencies for 2012 is sustained and as to
section 6662(a) penalties for 2012 is not sustained. It is further
ORDERED AND DECIDED that respondent’s notice of determination
dated November 22,2017, to Mrs. Williams upholding respondent’s proposed
collection action as to petitioners’ tax deficiencies for 2012 is sustained and as to
section 6662(a) penalties for 2012 is not sustained. It is further
ORDERED AND DECIDED that respondent’s notice of determination
dated November 22,2017, to Mr. Williams upholding respondent’s determination
as to a frivolous tax submissions penalty under section 6702 for 2012 is not
sustained.

Cary Douglas Pugh
Judge

ENTERED:

19-60804.910

SEP 30 2019

A7

37

JRB

UNITED STATES TAX COURT
WASHINGTON, DC 20217

ANTHONY DWAYNE WILLIAMS &
T'ESHEKA RENYELL YOUNG,

)
)
)

Petitioner(s),

)
)

) Docket No. 26671-17 L.

v.

)

COMMISSIONER OF INTERNAL REVENUE, )
)

Respondent

)
)
)

ORDER AND DECISION
This case was commenced on December 26,2017, under section 63301 in
response to notices of determination, all dated November 22,2017, concerning
proposed collection actions for petitioners’ Federal income tax liabilities for tax
years 2012 and 2013 and for frivolous tax submission penalties under section 6702
for returns and other filings for 2012 and 2013. Although the notices covered two
tax years, petitioners challenged respondent’s determinations for 2013 in this case,
and challenged respondent’s determinations for 2012 in a companion case at
docket no. 26670-17L filed on the same day. On December 3, 2018, we ordered
that the two cases be consolidated for purposes of trial, briefing and opinion.
On August 7,2019, respondent filed a Motion for Summary Judgment along
with a Declaration of Appeals Officer Andrew S. Ostos (AO Ostos), to which
petitioners objected on September 13, 2019. The two consolidated cases are set for
trial at the New Orleans, Louisiana trial calendar on October 7, 2019.
The undisputed facts are as follows:
1 Unless otherwise indicated, section references are to the Internal Revenue Code
of 1986, as amended, in effect for the relevant years. Rule references are to the
Tax Court Rules of Practice and Procedure. All monetary amounts are rounded to
the nearest dollar.

19-60804.1819

SERVED Sep 30 2019

A8

-2-

Petitioners timely filed their joint Form 1040, U.S. Individual Income Tax
Return, for tax year 2012, self-reporting an income tax liability of $8,156,
withholding of $15,505, and a credit of $7,349. They then filed a joint Form
1040X, Amended U.S. Individual Income Tax Return, for 2012 on July 10, 2014.
Their 2012 Form 1040X reduced their taxable income to zero and requested a
refund for the remaining $8,156 in withholdings.
Petitioners also timely filed their joint Form 1040 for tax year 2013, selfreporting an income tax liability of zero, withholding of $15,508, and a credit of
$15,508. They then filed a joint Form 1040X for 2013 on July 29, 2014. Their
2013 Form 1040X increased their withholdings by $3,390 and requested a total
refund of $18,898.
Respondent examined petitioners’ 2012 and 2013 tax returns, determined
deficiencies in tax and penalties under section 6662(a) for each, and issued notices
of deficiency for both years on October 20,2014. Petitioners did not file a petition
in this Court challenging the determinations so respondent assessed the
deficiencies and additions to tax.
Respondent also deemed petitioners’ 2012 Form 1040X and 2013 Form
1040 and Form 1040X to be frivolous and assessed one frivolous tax submission
penalty under section 6702(a) for 2012 and four separate penalties for 2013 against
Mr. Williams. The record includes one Form 8278, Assessment and Abatement of
Miscellaneous Civil Penalties, addressed to Mr. Williams, and bearing a signature
dated September 7,2016, that lists one frivolous tax return violation for 2013
under section 6702(a), described as “Frivolous Tax Return - Form 1040X Dated
06022016”, and the following remarks “ARG 44 FRV RETURN TO 525 LTR X
REF * * *[XXX-XX-XXXX]” and “Signature Date 07252014”, which date
corresponds to the date shown on petitioners’ 2013 Form 1040X. The record also
includes a Form 4340, Certificate of Assessments, Payments and Other Specified
Matters, showing assessment of section 6702 penalties on February 16,2015, in
the amount of $10,000, and January 18,2016, and October 10,2016, each in the
amount of $5,000.
Respondent issued to each petitioner a Notice of Intent to Levy and Notice
of Your Right to a Hearing, dated May 22,2017, with respect to their tax liabilities
for 2012 and 2013 (tax liability levy notices). Respondent issued Mr. Williams a
Notice LT11, also dated May 22, 2017, with respect to the single frivolous tax
submission penalty for 2012 and the four separate penalties for 2013 (frivolous

19-60804.1820

A9

-3-

penalty levy notice). On June 12, 2017, respondent timely received from
petitioners a Form 12153, Request for a Collection Due Process or Equivalent
Hearing, in which petitioners offered frivolous arguments and indicated they were
not interested in collection alternatives.
AO Ostos responded to petitioners’ Form 12153 with two Substantive
Contact Letters, both dated September 15, 2017, that (1) scheduled a
telephonic hearing on October 17,2017, concerning the tax liability levy notices
and the frivolous penalty levy notice, (2) requested a completed Form 433-A,
Collection Information Statement for Wage Earners and Self-Employed
Individuals, and completed Forms 1040 for 2014, 2015, and 2016, and (3) warned
petitioners that one or more of their positions raised in their Form 12153 was
frivolous and could subject them to additional penalties.
Petitioners did not submit the requested information before the scheduled
telephonic hearing. AO Ostos called petitioners on October 17,2017, for the
scheduled telephonic hearing. During the hearing, petitioners continued to offer
frivolous arguments and were not interested in collection alternatives. AO Ostos
warned petitioners that the Court might impose penalties under section 6673 if they
presented frivolous arguments to the Court.
After the hearing, petitioners sent AO Ostos a letter, dated November 17,
2017, which again offered frivolous arguments and indicated they were not
interested in collection alternatives. They did not include any of the requested
information with their letter. After receiving no additional information other than
petitioners’ letters, respondent issued three notices of determination, all dated
November 22, 2017: (1) to Mr. Williams upholding the tax liability levy notice;
(2) to Mrs. Williams upholding the tax liability levy notice; and (3) to Mr.
Williams upholding the frivolous penalty levy notice.
Analysis
Rule 121(b) provides in part that after a motion for summary judgment and
an opposing response are filed “[a] decision shall thereafter be rendered if the
pleadings * * * and any other acceptable materials, together with the affidavits or
declarations, if any, show that there is no genuine dispute as to any material fact
and that a decision may be rendered as a matter of law.” Summary judgment is
intended to expedite litigation and avoid unnecessary and expensive trials. Fla.
Peach Corn, v. Commissioner. 90 T.C. 678, 681 (1988).

19-60804.1821

A10

-4-

We have reviewed respondent’s motion and the documents submitted in
support thereof and petitioners’ response. We are satisfied that, viewing facts in
the light most favorable to petitioners, for the reasons summarized below,
respondent is entitled to a decision as a matter of law on all issues remaining after
respondent’s concessions.
Where the validity of the underlying tax liability is in issue, the Court
reviews the Commissioner’s determination de novo. Goza v. Commissioner. 114
T.C. 176,181-182 (2000). Where the validity of the underlying tax liability is not
properly in issue, the Court will review the settlement officer’s administrative
determination for abuse of discretion. Sego v. Commissioner. 114 T.C. 604, 610
(2000). The settlement officer must verify that the requirements of any applicable
law or administrative procedure have been met, consider issues properly raised by
the taxpayer, and consider whether the collection action balances the need for the
efficient collection of taxes with the taxpayer’s legitimate concern that any
collection action be no more intrusive than necessary. Secs. 6320(b) and (c),
6330(b), (c)(3).
A taxpayer may raise the underlying liability at a hearing if he did not
receive a notice of deficiency or otherwise have an opportunity to dispute his tax
liability. Sec. 6330(c)(2)(B). If a notice of deficiency is properly mailed to the
taxpayer at the taxpayer’s last known address, the notice is valid even if the
taxpayer did not receive it. See, e.g.. United States v. Zolla, 724 F.2d 808, 810
(9th Cir. 1984). As part of the settlement officer’s determination, he must verify
that a valid notice of deficiency was issued to the taxpayer at the taxpayer’s last
known address. Sec. 6330(c)(1); Jordan v. Commissioner. 134 T.C. 1, 12 (2010);
Hoyle v. Commissioner. 131 T.C. 197,200 (2008). But even if the notice was
properly mailed, the taxpayer may be able to challenge the underlying liability if
the taxpayer can establish that no notice was received. Hoyle v. Commissioner,
131 T.C. at 199; Sego v. Commissioner. 114 T.C. at 609; Snodgrass v.
Commissioner. T.C. Memo. 2016-235, at *14.
1. Tax Liability Lew Notices
Petitioners do not dispute receiving the notices of deficiency, but rather
challenge respondent’s tax liability levy notices with frivolous arguments and
claim that respondent failed to verify that all applicable procedures were followed.
Petitioners’ frivolous arguments have been rejected repeatedly by this and other
courts. See, e.g.. Wilcox v. Commissioner. T.C. Memo. 1987-225 (rejecting
contentions that wages are not income and payment of taxes is voluntary for

19-60804.1822

All

-5-

American citizens as frivolous), affd. 848 F.2d 1007 (9th Cir. 1988); Charczuk v.
Commissioner. T.C. Memo. 1983-433 (rejecting the contention that the income tax
is invalid as a matter of law as frivolous), affd. 771 F.2d 471 (10th Cir. 1985);
Knelman v. Commissioner. T.C. Memo. 2000-268 (rejecting the contention that
business income was not taxable gross income as frivolous), affd. 33 F. App’x
346 (9th Cir. 2002); see also Greenberg’s Express. Inc. V. Commissioner. 62 T.C.
324 (1974) (holding that we do not look behind the notice of deficiency to question
the procedures the Commissioner followed leading up to the issuance of the
notice). We therefore will not dignify them further by analyzing each specific
point in turn. Crain v. Commissioner, 737 F.2d 1417 (5th Cir. 1984) (“We
perceive no need to refute these arguments with somber reasoning and copious
citation of precedent; to do so might suggest that these arguments have some
colorable merit.”).
We now consider whether the settlement officer abused his discretion in
sustaining the proposed collection actions. In his motion, respondent states that he
was unable to verify compliance with the procedural requirements of section
6751(b)(1) for the penalties he determined under section 6662(a) for either 2012 or
2013. See sec. 7491(c); Graev v. Commissioner (GraevIH), 149 T.C. 485, 492493 (2017) supplementing and overruling our prior opinion in part Graev v.
Commissioner (Graev II), 147 T.C. 460 (2016). Section 6751(b)(1) requires the
Commissioner to show that the initial determination of certain penalties was
“personally approved (in writing) by the immediate supervisor of the individual
making such determination”. See sec. 6751(b)(1); Graev III. 149 T.C. at 493; see
also Chai v. Commissioner. 851 F.3d 190 (2d Cir. 2017) aff g in part, rev’g in part
T.C. Memo. 2015-42; Clay v. Commissioner. 152 T.C._,__(slip op. at 44)
(April 24,2019). Therefore, respondent concedes those penalties on procedural
grounds.
As to the remaining underlying deficiencies, the record establishes that AO
Ostos (1) verified that the requirements of any applicable law and administrative
procedure were followed; (2) considered the issues petitioners raised; and (3)
properly balanced the need for the efficient collection of taxes with petitioners’
legitimate concern that any collection action be no more intrusive than necessary.
We therefore will sustain respondent’s two notices of determination to proceed
with the collection action for petitioners’ underlying tax liabilities for 2012 and
2013, but not the section 6662(a) penalties assessed for those years.
2. Frivolous Penalty Lew Notice

19-60804.1823

A12

-6Section 6702(a)(1) imposes a $5,000 penalty on a taxpayer for filing a
frivolous return and section 6702(b) imposes a $5,000 penalty for frivolous
positions asserted in “specified frivolous submissions”. Respondent concedes that
Mr. Williams had no prior opportunity to challenge these penalties; therefore, he
was entitled to a de novo review of respondent’s determination. Goza v.
Commissioner, 114 T.C. at 181-182 (2000); see also Pohl v. Commissioner, T.C.
Memo. 2013-291 (holding that a taxpayer can dispute his liability for a section
6702 penalty because he would not have received a notice of deficiency before
assessment of that penalty).
The Commissioner bears the burden of showing supervisory approval for the
frivolous tax submission penalty under section 6702. See Kestin v. Commissioner.
153 T.C._,_(slip op. at 14) (August 29,2019). The record includes a penalty
approval form for one section 6702(a) penalty that is signed and dated September
7, 2016, which preceded assessment of one of the section 6702(a) penalties tied to
petitioners’ 2013 Form 1040X. Petitioners have not argued that this penalty was
not properly approved. We hold therefore that respondent has met his burden
under section 6751(b) as to this penalty. Mr. Williams raised only frivolous
arguments at the administrative hearing and before us challenging this penalty and
therefore has not properly disputed his underlying liability for it. See sec.
6330(c)(4)(B) (providing that the settlement officer cannot consider frivolous
positions); see also Pohl v. Commissioner, T.C. Memo. 2013-291. We also
conclude that petitioners’ 2013 Form 1040X is frivolous, and again decline to
respond to petitioners’ voluminous arguments as to why it is not. See Kestin, 153
T.C._,__(slip op. at 14): see also Wnuck v. Commissioner, 136 T.C. 498
(2011). Respondent concedes that he has not met his burden under section 6751 (b)
as to the remaining section 6702 penalties.
Mr. Williams identified no abuse of discretion by the settlement officer as to
his review of the section 6702 penalty assessed on October 10,2016, nor did we in
our review of the record. We therefore will sustain respondent’s notice of
determination to proceed with collection as to the section 6702 penalty assessed on
October 10, 2016, for petitioners’ 2013 Form 1040X but not as to the remaining
three penalties for 2013.
No genuine issues of material fact are in dispute, and no other challenges to
the notices of determination on which this case is based have been properly raised.
We therefore will grant respondent’s motion for summary judgment subject to
respondent’s concessions noted above.

19-60804.1824

A13

-7-

We warned petitioners previously that the Court can impose penalties of up
to $25,000 under section 6673 for frivolous arguments or groundless positions and
we advised them that their positions in this case appeared to fit this description.
They persisted even after our warning but they also raised an issue (verification)
that respondent conceded in part. We therefore will not impose a penalty under
section 6673 but we again warn them that penalties are likely in the future if they
keep taking these positions.
Upon due consideration and for cause, it is hereby
ORDERED that respondent’s Motion for Summary Judgment, filed August
7,2019, is granted. It is further
ORDERED AND DECIDED that respondent’s notice of determination
dated November 22,2017, to Mr. Williams upholding respondent’s proposed
collection action as to petitioners’ tax deficiencies for 2013 is sustained and as to
section 6662(a) penalties for 2013 is not sustained. It is further
ORDERED AND DECIDED that respondent’s notice of determination
dated November 22,2017, to Mrs. Williams upholding respondent’s proposed
collection action as to petitioners’ tax deficiencies for 2013 is sustained and as to
section 6662(a) penalties for 2013 is not sustained. It is further
ORDERED AND DECIDED that respondent’s notice of determination
dated November 22,2017, to Mr. Williams upholding respondent’s determination
as to frivolous tax submissions penalties under section 6702 is sustained as the
penalty for 2013 assessed on October 10, 2016, and is not sustained as to the
remaining three penalties for 2013.

Cary Douglas Pugh
Judge

ENTERED:

19-60804.1825

SEP 30 2019

A14

\JC~

JRN

UNITED STATES TAX COURT
WASHINGTON, DC 20217

ANTHONY DWAYNE WILLIAMS &
T'ESHEKA RENYELL YOUNG, ET AL.,

)
)
)

Petitioner(s),

)
)

v.

) Docket No. 26670-17 L, 26671-17 L.
)

COMMISSIONER OF INTERNAL REVENUE, )
)

Respondent

)
)

ORDER
These cases were set for trial at the Court’s December 3,2018, New
Orleans, Louisiana trial session. When the parties appeared at the call of these
cases from the calendar, petitioners made an oral motion for continuance to which
respondent did not object. We took that motion under advisement and ordered
status reports from the parties to allow petitioners an opportunity to give their cases
a fresh look. That fresh look has not resulted in progress but given the passage of
time we will grant the motion to continue and retain jurisdiction. We now will
address the other filings by petitioners.
On February 11, 2019, petitioners filed a “Statement Tender of Payment in
Full (Conditional Offer of Acceptance)”. That filing reflects arguments that we
have deemed frivolous and, in any event, has no legal effect so we will not address
it further.
On March 24, 2019, petitioners filed a Motion to Restrain Assessment or
Collection or to Order Refimd of Amount Collected in Dkt. No. 26670-17L, to
which respondent filed a response on May 1, 2019. At issue in that motion is a
collection action taken against petitioner T’esheka R. Young regarding a civil
penalty for 2012. Respondent argues in his response that the Notice of
Determination in this case addressed petitioners’ income tax liability for 2012 and
petitioner Anthony Dwayne Williams’s civil penalty for 2012, but not Ms.

19-60804.352

SERVED Jun 19 2019

A15

-2-

Young’s civil penalty. Because Ms. Young’s civil penalty is not before this Court,
we will deny petitioners’ motion.
On April 22, 2019, petitioners filed a Motion for Summary Judgment
expressing their intention to move for summary judgment. On May 6, 2019, they
filed another Motion for Summary Judgment indicating that they would file their
formal motion by May 14,2019. And on May 15,2019, they filed their formal
Motion for Summary Judgment. We will file the May 6 and May 15 motions as
supplements to the original and consider them all together.
Our review of these filings, and the ones that precede them, confirms to us
that petitioners continue to raise only frivolous arguments against respondent’s
proposed collection actions. The arguments they offer in support of their position
are incomplete, misleading and misguided, arid we will not dignify them further by
analyzing each specific point in turn. Crain v. Commissioner. 737 F.2d 1417 (5th
Cir. 1984) (“We perceive no need to refute these arguments with somber reasoning
and copious citation of precedent; to do so might suggest that these arguments have
some colorable merit.”). Petitioners have not stated a basis for granting summary
judgment on any of the issues before the Court (the appropriateness of
respondent’s determinations for 2012 and 2013 noted above). Therefore we will
deny their Motion for Summary Judgment because it raises only frivolous
arguments.
Finally, when we continued these cases from the December trial session we
warned petitioners that the arguments they were raising were frivolous, and they
indicated their willingness to work with respondent’s counsel to resolve these
cases. That has not happened. We warn petitioners that the Court may impose
penalties under I.R.C. sec. 6673 for frivolous arguments or groundless positions of
up to $25,000. If they do not abandon their frivolous positions, especially after we
granted their oral motion for continuance in these cases on the basis of their
representation that they would reconsider their positions, they are increasing the
risk that we will impose a penalty under I.R.C. sec. 6673 in the future. Because the
parties have not been able to resolve these cases, we will set them for trial.
Upon due consideration and for cause, it is hereby
ORDERED petitioners’ oral Motion for Continuance, made December 3,
2018, is granted and these cases are continued. It is further

19-60804.353

A16

-3-

ORDERED that jurisdiction of these cases is retained by this Division of the
Court. It is further
ORDERED that petitioners’ Motion to Restrain Assessment or Collection or
to Order Refund of Amount Collected, filed March 24,2019, in Dkt. No. 2667017L, is denied. It is further
ORDERED that petitioners’ Motion for Summary Judgment, filed May 6,
2019, at entry # 30, is retitled petitioners’ “First Supplement to Motion for
Summary Judgment”. It is further
ORDERED that petitioners’ Motion for Summary Judgment, filed May 15,
2019, at entry #31, is retitled petitioners’ “Second Supplement to Motion for
Summary Judgment”. It is further
ORDERED that petitioners’ Motion for Summary Judgment, file April 22,
2019, as supplemented, May 6,2019, and May 15,2019, is denied. It is farther
ORDERED that these cases are set for trial at the Court’s October 7,2019,
New Orleans, Louisiana trial session schedule to commence at 10:00 a.m. in Room
212, U.S. Custom House, 423 Canal Street, New Orleans, LA 70130. It is further
ORDERED that the Clerk of the Court shall attach to the copies of this
Order served on the parties a copy of the Court’s Standing Pretrial Order for the
October, 7,2019, New Orleans, Louisiana trial session.

Cary Douglas Pugh
Judge

Dated: Washington, D.C.
June 17,2019

19-60804.354

A17

ou

JRN

UNITED STATES TAX COURT
WASHINGTON, DC 20217

ANTHONY DWAYNE WILLIAMS &
T'ESHEKA RENYELL YOUNG, ET AL.,

)
)
)

Petitioner(s),

)
)

v.

) Docket No. 26670-17 L,

26671-17 L.

)

COMMISSIONER OF INTERNAL REVENUE, )
)

Respondent

)
)

ORDER
These cases were set for trial at the Court’s December 3, 2018, New
Orleans, Louisiana trial session. When the parties appeared at the call of these
cases from the calendar, petitioners made an oral motion for continuance to which
respondent did not object. We took that motion under advisement and ordered
status reports from the parties to allow petitioners an opportunity to give their cases
a fresh look. That fresh look has not resulted in progress but given the passage of
time we will grant the motion to continue and retain jurisdiction. We now will
address the other filings by petitioners.
On February 11, 2019, petitioners filed a “Statement Tender of Payment in
Full (Conditional Offer of Acceptance)”. That filing reflects arguments that we
have deemed frivolous and, in any event, has no legal effect so we will not address
it further.
On March 24,2019, petitioners filed a Motion to Restrain Assessment or
Collection or to Order Refund of Amount Collected in Dkt. No. 26670-17L, to
which respondent filed a response on May 1, 2019. At issue in that motion is a
collection action taken against petitioner T’esheka R. Young regarding a civil
penalty for 2012. Respondent argues in his response that the Notice of
Determination in this case addressed petitioners’ income tax liability for 2012 and
petitioner Anthony Dwayne Williams’s civil penalty for 2012, but not Ms.

19-60804.1267

SERVED Jun 19 2019

A18

-2-

Young’s civil penalty. Because Ms. Young’s civil penalty is not before this Court,
we will deny petitioners’ motion.
On April 22,2019, petitioners filed a Motion for Summary Judgment
expressing their intention to move for summary judgment. On May 6, 2019, they
filed another Motion for Summary Judgment indicating that they would file their
formal motion by May 14, 2019. And on May 15, 2019, they filed their formal
Motion for Summary Judgment. We will file the May 6 and May 15 motions as
supplements to the original and consider them all together.
Our review of these filings, and the ones that precede them, confirms to us
that petitioners continue to raise only frivolous arguments against respondent’s
proposed collection actions. The arguments they offer in support of their position
are incomplete, misleading and misguided, and we will not dignify them further by
analyzing each specific point in turn. Crain v. Commissioner, 737 F.2d 1417 (5th
Cir. 1984) (“We perceive no need to refute these arguments with somber reasoning
and copious citation of precedent; to do so might suggest that these arguments have
some colorable merit.”). Petitioners have not stated a basis for granting summary
judgment on any of the issues before the Court (the appropriateness of
respondent’s determinations for 2012 and 2013 noted above). Therefore we will
deny their Motion for Summary Judgment because it raises only frivolous
arguments.
Finally, when we continued these cases from the December trial session we
warned petitioners that the arguments they were raising were frivolous, and they
indicated their willingness to work with respondent’s counsel to resolve these
cases. That has not happened. We warn petitioners that the Court may impose
penalties under I.R.C. sec. 6673 for frivolous arguments or groundless positions of
up to $25,000. If they do not abandon their frivolous positions, especially after we
granted their oral motion for continuance in these cases on the basis of their
representation that they would reconsider their positions, they are increasing the
risk that we will impose a penalty under I.R.C. sec. 6673 in the future. Because the
parties have not been able to resolve these cases, we will set them for trial.
Upon due consideration and for cause, it is hereby
ORDERED petitioners’ oral Motion for Continuance, made December 3,
2018, is granted and these cases are continued. It is further

19-60804.1268

A19

-3-

ORDERED that jurisdiction of these cases is retained by this Division of the
Court. It is further
ORDERED that petitioners’ Motion to Restrain Assessment or Collection or
to Order Refund of Amount Collected, filed March 24, 2019, in Dkt. No. 2667017L, is denied. It is further
ORDERED that petitioners’ Motion for Summary Judgment, filed May 6,
2019, at entry # 30, is retitled petitioners’ “First Supplement to Motion for
Summary Judgment”. It is further
ORDERED that petitioners’ Motion for Summary Judgment, filed May 15,
2019, at entry #31, is retitled petitioners’ “Second Supplement to Motion for
Summary Judgment”. It is further
ORDERED that petitioners’ Motion for Summary Judgment, file April 22,
2019, as supplemented, May 6, 2019, and May 15, 2019, is denied. It is further
ORDERED that these cases are set for trial at the Court’s October 7, 2019,
New Orleans, Louisiana trial session schedule to commence at 10:00 a.m. in Room
212, U.S. Custom House, 423 Canal Street, New Orleans, LA 70130. It is further
ORDERED that the Clerk of the Court shall attach to the copies of this
Order served on the parties a copy of the Court’s Standing Pretrial Order for the
October, 7, 2019, New Orleans, Louisiana trial session.

Cary Douglas Pugh
Judge

Dated: Washington, D.C.
June 17,2019

19-60804.1269

A20

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

FILED

No. 19-60804

April 16, 2020

Lyle W. Cayce
ANTHONY DWAYNE WILLIAMS, T’ESHKA RENYELL YOUNG, Clerk

Petitioners - Appellants
v.

COMMISSIONER OF INTERNAL REVENUE,
Respondent - Appellee

Appeal from the United States Tax Court
Tax Court Case No. 26670-17L
Tax Court Case No. 26671-17L

Before WIENER, HAYNES, and COSTA, Circuit Judges.
PER CURIAM:*
Ignoring the Sixteenth Amendment, appellants argue that an income tax
on their wages is unconstitutional. What we said years ago in rejecting the
appeal of a tax protestor still rings true: “We perceive no need to refute these
arguments with somber reasoning and copious citation of precedent; to do so
might suggest that these arguments have some colorable merit.”

Crain v.

Commissioner, 737 F.2d 1417, 1417 (5th Cir. 1984). Moreover, appellants were
not allowed to challenge their underlying tax liability in the collection due

* Pursuant to 5TH ClR. R. 47.5, the court has determined that this opinion should not
be pubhshed and is not precedent except under the limited circumstances set forth in 5TH
ClR. R. 47.5.4.

A21

process hearing because they had previously received notices of deficiency for
the tax years at issue but did not dispute that tax liability. I.R.C. §
6330(c)(2)(B). Although Anthony Williams could challenge the imposition of
his frivolous-return penalty in the due process hearing—he did not receive a
deficiency notice for that penalty or otherwise have an earlier opportunity to
contest, that penalty was proper. See I.R.C. § 6702(a), 2(A) (allowing a penalty
of $5,000 if the person files an incorrect return “based on a position which the
Secretary has identified as frivolous”). As we noted at the outset, Williams’s
position that he did not receive wages because he was a “non-federal worker”
paid by a private employer is frivolous. And the Commissioner has recognized
it as such. IRS Notice 2010-33(III)(7) (citing Revenue Ruling 2006-18).
AFFIRMED.

A22

case: iy-bu»U4

Document: uubib4b4bU4

page: 1

Date Hiea: ub/ib/zu^u

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

No. 19-60804
ANTHONY DWAYNE WILLIAMS; T'ESHEKA RENYELL YOUNG,
Petitioners - Appellants
v.

COMMISSIONER OF INTERNAL REVENUE,
Respondent - Appellee

Appeal from a Decision of the
United States Tax Court
ON PETITION FOR REHEARING AND REHEARING EN BANC
(Opinion 4/16/2020 , 5 Cir.,

F.3d

Before WIENER, HAYNES, and COSTA, Circuit Judges.
PER CURIAM:
( X)

The Petition for Rehearing is DENIED and no member of this panel nor
judge in regular active service on the court having requested that the
court be polled on Rehearing En Banc, (FED. R. APP. P. and 5th ClR. R.
35) the Petition for Rehearing En Banc is also DENIED.

( )

The Petition for Rehearing is DENIED and the court having been polled
at the request of one of the members of the court and a majority of the
judges who are in regular active service and not disqualified not having

A23

case: iy-bUbU4

Document: uubib4b4bU4

page: z

uate Hiea: ub/ib/zuzu

voted in favor, (FED. R. APP. P. and 5th ClR. R. 35) the Petition for
Rehearing En Banc is also DENIED.
( )

A member of the court in active service having requested a poll on the
reconsideration of this cause en banc, and a majority of the judges in
active service and not disqualified not having voted in favor, Rehearing
En Banc is DENIED.
ENTERED FOR THE COURT:
/s/Gregg J. Costa
UNITED STATES CIRCUIT JUDGE

A24

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

No. 19-60804
ANTHONY DWAYNE WILLIAMS; T'ESHEKA RENYELL YOUNG,
Petitioners - Appellants
v.
COMMISSIONER OF INTERNAL REVENUE,
Respondent - Appellee

Appeal from a Decision of the
United States Tax Court
ORDER:
(X) The Appellants’ opposed motion for stay of the mandate pending petition
for writ of certiorari is DENIED.

GREGG J. COSTA
UNITED STATES CIRCUIT JUDGE

A25

